4
I

C@OCKLE

Legal Briefs E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-391

JODY LOMBARDO, ET AL.,
Petitioners,
Vv.
CITY OF ST. LOUIS, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of October, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE RESTORE THE FOURTH, INC. &
THE RUTHERFORD INSTITUTE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED
To be filed for:
JOHN W. WHITEHEAD MAHESHA P. SUBBARAMAN
DOUGLAS R. MCKUSICK Counsel of Record
THE RUTHERFORD INSTITUTE SUBBARAMAN PLLC*
109 Deerwood Rd. 222 S. 9th St., Ste. 1600
Charlottesville, VA 22911 Minneapolis, MN 55402
(434) 978-3888 (612) 315-9210

mps@subblaw.com
* Counsel for Restore the
Fourth, Inc.

Subscribed and sworn to before me this 26th day of October, 2020.
{am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Zz Chk
RENEE J. GOSS .

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 40260
Jonathan Ellis Taylor
Counsel of Record
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
2028881741
jon@guptawessler.com
Attorneys for Petitioners

Robert Henry Dierker, Jr.
Counsel of Record

J. Brent Dulle

City Counselor's Office

314 City Hall

1200 Market Street

Saint Louis, MO 63103

(314) 622-3361

dierkerr@stlouis-mo.gov

Attorneys for Respondents
